DOE/IG-0558




                            COST SHARING AT THE ASHTABULA
                             ENVIRONMENTAL MANAGEMENT
         AUDIT                         PROJECT
        REPORT




                                        JUNE 2002



U.S. DEPARTMENT OF ENERGY
    OFFICE OF INSPECTOR
          GENERAL
 OFFICE OF AUDIT SERVICES
                    U. S. DEPARTMENT OF ENERGY
                          Washington, DC 20585

                                June 7, 2002


MEMORANDUM FOR THE SECRETARY


FROM:                     Gregory H. Friedman (Signed)
                          Inspector General


SUBJECT:                  INFORMATION: Audit Report on "Cost Sharing at the Ashtabula
                          Environmental Management Project"


BACKGROUND

From 1952 through 1988, RMI Titanium Company (RMI), a private company, performed work
for the Department of Energy and its predecessor agencies as well as for various commercial
customers. RMI's commercial work involved processing uranium and non-radioactive metals,
such as copper and copper alloys. Historically, the Federal Government has not reimbursed
private companies for clean-up activities related to their commercial operations. However, in
March 1993, the Department awarded RMI a 10-year, cost-reimbursable contract to clean up
the RMI site in its entirety and adjacent grounds to a level that permits release of the site for
unrestricted use.

The site remediation, now referred to as the Ashtabula Environmental Management Project, is
projected to cost approximately $300 million. Through Fiscal Year 2001, the Department has
spent about $103 million on this effort. We conducted this audit to determine whether RMI
should pay a portion of the remediation cost of Ashtabula.

RESULTS OF AUDIT

Based on our discussions with responsible Federal managers and a review of available
documentation, we were unable to ascertain a clear rationale for the Department accepting full
financial responsibility for remediating Ashtabula. As noted, the site was, and still is, privately
owned and operated. Moreover, all of RMI’s copper work and a portion of its uranium work
was performed for commercial customers. At the same time, the Department has paid all of the
costs associated with the decontamination and restoration of Ashtabula.

Although the decision was made nearly a decade ago and the historical record is incomplete, the
information available to us suggests that the Department did not adequately evaluate cost-
sharing options when negotiating the 1993 remediation contract. With the contract’s expiration
in 2003, the Department has an opportunity to negotiate an agreement for the remaining clean
up work that requires both parties – RMI and the Government – to share costs in closer
proportion to the benefits originally derived from site operations. Given the history of the
relationship and the significance of the funding issues involved here, such negotiations are
likely to be contentious and the outcome cannot be predicted with certainty. Nonetheless, we
believe that reasonable cost-sharing provisions in future contracts at Ashtabula could save
taxpayers as much as $34 million.
                                             -2-


During our review, we noted that cost-sharing arrangements had been used to assist in the
clean up of other contractor-owned sites that supported the Department's nuclear weapons
program. Accordingly, we recommended that such arrangements be included in the future
remediation contract at Ashtabula.


MANAGEMENT REACTION

Management did not agree with our specific audit recommendations relating to cost sharing.
However, the Ohio Field Office did agree to evaluate the impact of RMI's commercial work
on the cost of the cleanup and factor the results of this evaluation into future contracts. In
addition, management agreed to consider discontinuing fee payments in future contracts as the
Department evaluates options to effectively liquidate the Department's liability at Ashtabula


Attachment

cc: Chief of Staff
    Under Secretary for Energy, Science and Environment
    Assistant Secretary for Environmental Management
    Manager, Ohio Field Office
COST SHARING AT THE ASHTABULA ENVIRONMENTAL
MANAGEMENT PROJECT

TABLE OF
CONTENTS



               Overview

               Introduction and Objective .......................................................... 1

               Conclusions and Observations.................................................. 2


               Cost Sharing Opportunities

               Details of Finding ........................................................................ 3

               Recommendations and Comments ........................................... 5


               Appendices

               Scope and Methodology ............................................................. 7

               Chronology of Major Contract Actions With RMI ........................ 8

               Prior OIG Reports ....................................................................... 9
OVERVIEW

INTRODUCTION AND   From 1952 to 1961, Reactive Metals, Inc., then a division of Bridgeport
OBJECTIVE          Brass Company, performed extrusion1 work for the Department of
                   Energy's (Department) predecessor agencies in an Air Force facility in
                   Adrian, Michigan. In 1961, the facility was sold to a private company,
                   and the Department was required to relocate its extrusion press. The
                   Government concluded that the best long-term solution for its extrusion
                   work was to install the press at its Fernald facilities, near Fernald, Ohio.
                   Conversely, Bridgeport Brass Company proposed to move the extrusion
                   press from the Adrian facility to an idle facility in Ashtabula, Ohio,
                   owned by Reactive Metals, Inc., with one of the primary considerations
                   being the company's desire to use the Government's extrusion press for
                   commercial work. In fact, the company requested that its contract be
                   modified to include a "clear and unequivocal provision…for such use."
                   In addition, the company stated that if the contract ran for a full 6-year
                   period, the Government would have no obligation to clean up the plant.
                   Since the Government's policy at the time was to encourage private
                   industry involvement in weapons production, the Government
                   authorized the relocation of the press to Ashtabula and modified the
                   contract to state that the Government would not be liable for any
                   cleanup costs of the Ashtabula facility.

                   In 1978, the Department again modified the contract to accept liability
                   for the remediation costs associated with Government-owned buildings
                   erected for the purpose of supporting the main extrusion plant owned by
                   Reactive Metals, Inc. The contract still maintained that the
                   Government was not liable for the restoration or cleanup of the facilities
                   owned by Reactive Metals, Inc.

                   Until 1988, Reactive Metals, Inc., now known as the RMI Titanium
                   Company (RMI), processed uranium at its Ashtabula facilities for the
                   Department for the production of nuclear fuel elements. In addition to
                   the uranium work performed for the Government, RMI also performed
                   work for various commercial customers using the Government's
                   extrusion press. The commercial work included extruding uranium as
                   well as non-radioactive metals, such as copper and copper alloys. The
                   Government neither assumed liability for RMI's commercial operations
                   nor indemnified RMI from any damage resulting from its commercial
                   operations. However, in 1988, RMI was awarded a subcontract under



                   1
                    Extrusion refers to the process of reshaping metal into tubes, rods, or shaped forms
                   by heating and forcing the material through a die on a horizontal extrusion press.



Page 1                                                                 Introduction and Objective
                  the Fernald prime contract that made payment of remediation costs
                  arising from work performed for the Department allowable under the
                  subcontract. (See Appendix 2 for a chronology of the major contract
                  actions with RMI.)

                  In March 1993, the Department awarded RMI a 10-year, cost-
                  reimbursable contract to clean the extrusion plant and adjacent grounds
                  to a level that permits release of the site for unrestricted use. The
                  Department negotiated the cleanup contract with RMI as part of the
                  closeout activities under the prior contract. The project, now referred to
                  as the Ashtabula Environmental Management Project (AEMP), is
                  expected to cost about $300 million. Through Fiscal Year (FY) 2001,
                  the Department had spent about $103 million on the contract.

                  The objective of this audit was to determine whether the Department
                  should require RMI to pay a portion of the cost of remediating RMI's
                  extrusion plant.

CONCLUSIONS AND   RMI should pay a portion of the cost of remediating its extrusion plant.
OBSERVATIONS      The Department is currently paying all of the cost to decontaminate the
                  site even though RMI performed about 13 percent of its uranium work,
                  and all of its copper work, for commercial customers. When negotiating
                  the current remediation contract with RMI, the Department did not
                  adequately evaluate cost-sharing opportunities. Had cost sharing
                  provisions been included in the current contract, the Department could
                  have avoided about $25 million in unnecessary costs and fees.
                  Additionally, the Department could avoid about $34 million on future
                  contracts by requiring RMI to pay its fair share of the cost to cleanup its
                  plant and eliminating all fees.

                  This audit identified issues that management should consider when
                  preparing its year-end assurance memorandum on internal controls.




                                                                 Signed
                                                        Office of Inspector General




Page 2                                                    Conclusions and Observations
COST SHARING OPPORTUNITIES

Some Work Was For        RMI's plant at Ashtabula performed work for the Department as well as
Commercial Customers     for commercial customers. As such, RMI should pay a portion of the
                         remediation cost of the contractor-owned facility.

                         Between 1962 and 1990, RMI performed a significant amount of
                         commercial work at the plant using the Government-owned extrusion
                         press. A preliminary review indicated that about 13 percent of the
                         uranium processed by RMI was for commercial customers. According
                         to RMI, the commercial work was performed for two customers
                         performing work for the Department of Defense (DOD). The primary
                         customer, for which 60 percent of the commercial work was completed,
                         was a Canadian uranium mining company. The other customer was a
                         prime contractor to the DOD.

                         The Department is also reimbursing RMI for cleanup costs resulting
                         from RMI's copper operations, even though all of the copper work
                         performed at the extrusion plant was for RMI's commercial operations.
                         For example, RMI processed 171 drums of copper hydroxide waste
                         generated from its commercial copper extrusion work and disposed of
                         the waste at the Nevada Test Site. In addition, the Department paid for
                         the removal and disposal of commercial pickle and rinse tanks used for
                         RMI's copper operations. RMI also plans to install and startup a system
                         to reduce copper contamination in water discharges as part of its
                         remediation contract with the Department.

Prior Contracts          The Code of Federal Regulations requires contracting officers to assure
Supported Cost Sharing   that services are obtained at fair and reasonable prices and to obtain all
                         information necessary to evaluate reasonableness. With respect to cost-
                         reimbursement contracts, the contracting officer is further obligated to
                         perform analyses to determine what the Government should realistically
                         expect to pay for the service.

                         We determined that at other Departmental environmental remediation
                         sites, the Department has utilized cost-sharing agreements to clean up
                         privately-owned facilities that were used to perform both Government
                         and commercial work. For example, at Battelle Memorial Institute in
                         Columbus, Ohio, the Department pays 90 percent of the cleanup cost
                         and the contractor pays the remaining 10 percent. Similarly, the
                         Department paid 76 percent of the cost of cleaning up a General
                         Atomics facility in San Diego, California, while the contractor paid the
                         remaining 24 percent. For both of these contracts, we noted that
                         extensive analyses were performed to support the cost-sharing
                         provisions.


Page 3                                                                         Details of Finding
Evaluation of Cost Sharing   We were unable to determine why the Department decided to change
Opportunities                the RMI contract language in 1988 to allow Government
                             reimbursement of remediation costs relating to the RMI-owned
                             facility. As stated, in 1988, RMI was awarded a subcontract that
                             allowed for the payment of remediation costs arising from work
                             performed for the Department. On November 10, 1992, RMI filed a
                             claim asserting that the new provision made the Government liable
                             for all of the costs associated with restoring and cleaning up the site.
                             On the same day, the Department sent two representatives to the
                             AEMP to evaluate whether cost sharing would be a viable option.
                             The representatives spent one day at the site, where they listened to
                             briefings from RMI on its past commercial work and toured the site.
                             The site was not fully characterized at the time of the evaluation.
                             Based on the information provided by RMI on that day, the
                             Department concluded that RMI's commercial work did not
                             significantly contribute to the contamination of the site and that cost
                             sharing was not warranted. This conclusion was based on the
                             assumption that the commercial uranium work was of insignificant
                             volume and performed on behalf of DOD.

                             The Department did not verify the accuracy of the information on
                             commercial operations provided by RMI during contract
                             negotiations. Subsequently, in May 2000, the Department issued a
                             Department of Energy Ohio Sites Recycled Uranium Project Report.
                             Although cost sharing was not the focus of the report, it indicated
                             that 13 percent of the uranium processed at the site was for RMI's
                             commercial customers. The report was based on RMI's review of
                             shipping and receiving documents. Despite this new information on
                             RMI's commercial work, a thorough review of RMI's past operations
                             has not been conducted. When we discussed these matters with RMI
                             during our audit, a company official estimated that a fully dedicated
                             person would need three months to reconstruct a history of its past
                             operations. In our judgement, the cost of the effort would be
                             minimal in comparison to the potential remediation expenditures by
                             the Department. The Office of Inspector General is aware that, by
                             comparison, the Battelle Memorial Institute spent 10 months and
                             5,000 staff-hours to reconstruct its operational history. The
                             Department required this analysis prior to funding 90 percent of the
                             cleanup of the site.

                             Also, the Department did not evaluate RMI's claim that all of the
                             non-Department uranium work was completed for the DOD or the
                             extent that the DOD would have been liable for site cleanup. To be
                             eligible for DOD cleanup funds, property owners must show that the

Page 4                                                                           Details of Finding
                  DOD controlled the property. Based on the available information,
                  RMI's commercial operations did not meet this criteria.

                  Additionally, although copper contamination issues have arisen
                  during cleanup of the site, the Department has not amended the
                  contract to require RMI to pay for the cleanup of any copper
                  contamination. In all of the instances discussed earlier in the report,
                  RMI's plans for addressing the copper contamination issues were
                  clearly documented in reports to the Department.

Costs and Fees    The Department could have avoided about $25 million in
                  unnecessary costs and fees under the current contract by requiring
                  RMI to pay at least 13 percent of the cost to cleanup the site and
                  eliminating all fees. This represents 13 percent of the $103 million
                  paid by the Department through FY 2001 as well as the projected
                  costs through the end of the contract. Also, since the current contract
                  will expire in March 2003, the Department could avoid about
                  $34 million in costs and fees on future contracts, based on RMI's
                  latest cost and fee projections. In addition, it should be noted that
                  cost-sharing arrangements normally provide maximum incentives for
                  contractors to control and reduce costs for themselves and the
                  Government.

                  With respect to fees, the Department paid RMI about $6.2 million in
                  fees for cleaning up the site through FY 2000, and could pay
                  millions more before the project is complete. By comparison, at the
                  Battelle Memorial Institute and General Atomic facilities, neither
                  contractor received any fee for cleanup work that took place at their
                  contractor-owned sites.

                  Further, without a clear understanding of the Department's liability
                  with respect to RMI's commercial operations, the Department has
                  little assurance that the cost of any future liabilities tied to RMI's past
                  commercial operations will not be passed on to the Department. The
                  potential exists, for example, for liabilities to arise from RMI's
                  commercial work with beryllium copper.

RECOMMENDATIONS   We recommend that for future contracts or contract extensions
                  involving the cleanup of the AEMP, the Manager, Ohio Field Office:

                      1. Require that RMI pay its fair share of cleanup costs
                         associated with commercial extrusions, and

                      2. Discontinue fee payments to RMI for cleaning up its own
                         facilities.

Page 5                                             Recommendations and Comments
MANAGEMENT REACTION   Management did not concur with the recommendations as stated.
                      However, management agreed to evaluate the impact of the
                      commercial work conducted at the site, the conditions under which
                      the commercial work was undertaken, and the impact, if any, on the
                      cost of the cleanup. The Department plans to assemble a team of
                      technical and administrative personnel to complete the evaluation by
                      September 2002. If sufficient evidence to support a cost-sharing
                      arrangement is found, then the Department will factor those
                      conclusions into future agreements for liquidating the Department's
                      liability at the AEMP. In addition, management stated that the
                      Department will have the latitude to pursue alternatives, such as
                      discontinuing fee payments to RMI, when the current contract ends
                      on March 31, 2003. Management stated that it intends to take
                      whatever action most effectively liquidates the Department's liability
                      at the AEMP and that the report's recommendations will be
                      considered in the evaluation of the Department's options.

AUDITOR COMMENTS      We consider the proposed actions to be responsive to the intent of
                      the recommendations.




Page 6                                               Recommendations and Comments
Appendix 1
SCOPE         The audit was performed from October 30, 2001, to December 20,
              2001, at the Ohio Field Office in Miamisburg, Ohio, the Oak Ridge
              Operations Office, in Oak Ridge, Tennessee, and the Ashtabula
              Environmental Management Project in Ashtabula, Ohio. The audit
              included a review of the Department's cost sharing practices, extrusion
              operations at the Ashtabula extrusion plant from FYs 1962 through
              1990, and cleanup operations from Fiscal Years 1990 through 2001.

METHODOLOGY   To accomplish the audit objective, we:

                   •   Analyzed the historical context of the Department's decision to
                       move the extrusion press to the RMI facility;

                   •   Reviewed the Department's previous contracts and its current
                       contract with RMI;

                   •   Evaluated RMI's estimates of work performed at the extrusion
                       plant;

                   •   Reviewed cost sharing arrangements at other non-Department
                       owned sites;

                   •   Reviewed criteria for DOD cleanup funds;

                   •   Evaluated costs associated with the AEMP; and,

                   •   Interviewed personnel from RMI, the Department, and the
                       U.S. Army Corps of Engineers.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, the
              assessment included a review of the Department’s implementation of
              the Government Performance and Results Act of 1993. Although no
              performance measures were established for cost sharing, performance
              measures were established for major cleanup activities at the AEMP.
              We did not rely on computer-processed data to achieve our audit
              objective.

              We held an exit conference with the Department's AEMP Director, on
              May 15, 2002.



Page 7                                                     Scope and Methodology
Appendix 2
             CHRONOLOGY OF MAJOR CONTRACT ACTIONS WITH RMI

1961         The extrusion press was moved to the RMI-owned facility in Ashtabula, Ohio. The
             contract was modified to state,

                 …the Government shall not be liable to the Contractor for any costs of
                 restoration or cleanup of the Contractor's Ashtabula facilities whether (1)
                 arising upon completion, expiration or termination of this contract or any part
                 thereof, or (2) resulting from removal of Governement property from the
                 Contractor's Ashtabula facilities at any time.

1978         The Department modified RMI's contract to accept liability for the remediation costs
             associated with Government-owned buildings erected on the Ashtabula site to support
             the main extrusion plant owned by RMI. The contract stated,

                 …the Government shall not be liable to the Contractor for any costs of
                 restoration or cleanup of the Contractor's Ashtabula facilities…provided,
                 however, that the Government shall be liable for the aforementioned costs
                 associated with…[two specific Department-owned buildings and concrete
                 slabs currently on-site]….and such other buildings as DOE may in the future
                 erect on the Ashtabula site.

1988         When the Department's contract ended, RMI was awarded a subcontract from the
             Department's prime contractor for the Fernald site. The subcontract made payment of
             remediation costs arising out of work performed for the Department allowable under the
             subcontract. The subcontract stated,

                 At such time as the subcontractor's Ashtabula facilities utilized for work under
                 this subcontract or the predecessor contract with DOE (the "Contracts") are
                 no longer required for performance of work under this subcontract or upon
                 completion, expiration or termination of this subcontract, the cost of the
                 shutdown, decommissioning, decontamination, cleanup, disposal, restoration,
                 remediation and property management of the facilities which have been
                 impacted by the subcontractor's performance of work under the contract shall
                 be an allowable cost hereunder…

1992         RMI filed a claim directly with the Department seeking restoration of the entire
             Ashtabula site. RMI based the claim on the language contained in the subcontract listed
             above.

1993         The Department awarded RMI a new contract to remediate the site. The new contract
             stated that the contract was intended to fulfill the Department's obligations under the
             1988 subcontract clause listed above. The subcontract language was incorporated into
             the new contract.


Page 8                                                       Chronology of Major Contract Actions
Appendix 3

                      PRIOR OFFICE OF INSPECTOR GENERAL REPORTS


The Office of Inspector General has issued the following reports concerning cost sharing and the
management of the AEMP:

Report DOE/IG-0441, Cost Sharing at Basic Energy Sciences' User Facilities (March 1999). The audit
concluded that cost sharing could enhance scientific research at Basic Energy Sciences' user facilities.

Report DOE/IG-0521, Administration of Small Business Innovation Research Phase II Grants (August
2001). The audit found that the Department had not appropriately verified that all costs claimed by grantees
were allowable, and did not verify that grantees fully contributed their required share of costs.

Report DOE/IG-0530, Management of Personal Property at the Ashtabula Environmental Management
Project (November 2001). The inspection concluded that the AEMP was not managing Government-
owned personal property in accordance with Departmental and other Federal property management
requirements.

Report DOE/IG-0541, Remediation and Closure of the Ashtabula Environmental Management Project
(January 2002). The audit determined that the remediation of the AEMP was not on schedule to be
completed by March 2003.

Report DOE/IG-0542, Soil Washing at the Ashtabula Environmental Management Project (January 2002).
The audit concluded that the AEMP's soil washing project had not met the Department's performance and
cost expectations.




Page 9                                                                                    Prior OIG Audits
                                                                             IG Report No. : DOE/IG-0558

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
